NO. __

_

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2021

RAYMOND MOYA, - PETITIONER
VS.
UNITED STATES OF AMERICA-RESPONDENT
PROOF OF SERVICE
I, J. Lance Hopkins, do swear or declare that on this date, September 10, 2021 as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED INFORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid.
The names and address of those served are as follows:
Solicitor General of the United States, Rm. 5614, Dept. of Justice, 950
Pennsylvania Ave., N.W., Washington, D.C. 20530-0001.

James Braun, Assistant U.S. Attorney for the District of Colorado, PO Box 607,
Albuquerque, New Mexico 87102
Raymond Moya, Inmate #64640-051, FCI Florence, PO Box 6000, Florence,
Colorado 81226.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 10 2021.
/s/J. Lance Hopkins
J. Lance Hopkins

